                TIRNO-94-D-00090 and TIRNO-00-D-00019,
                        Audit of Incurred Costs
                          for Fiscal Year 2001

                                October 2003

                     Reference Number: 2004-1C-008




  This report has cleared the Treasury Inspector General For Tax Administration
disclosure review process and information determined to be restricted from public
                  release has been redacted from this document.
                                      DEPARTMENT OF THE TREASURY
                                         WASHINGTON, D.C. 20220



INSPECTOR GENERAL
      for TAX
  ADMINISTRATION



                                           October 31, 2003


       MEMORANDUM FOR DAVID A. GRANT
                      DIRECTOR OF PROCUREMENT
                      INTERNAL REVENUE SERVICE




       FROM:                  Daniel R. Devlin
                              Assistant Inspector General for Audit (Headquarters Operations
                              and Exempt Organizations Programs)

       SUBJECT:               TIRNO-94-D-00090 and TIRNO-00-D-00019, Audit of Incurred
                              Costs for Fiscal Year 2001 (Audit #20041C0203)


       The Defense Contract Audit Agency (DCAA) examined the contractor’s
       February 12, 2002, certified final indirect cost rate proposal and related books and
       records for reimbursement of Fiscal Year 2001 incurred costs. The purpose of the
       examination was to determine the allowability and allocability of direct and indirect costs
       and to establish audit-determined indirect cost rates for July 1, 2000, through
       June 30, 2001. The proposed rates apply primarily to flexibly priced contracts.
       The DCAA stated that the contractor’s indirect rates are acceptable as proposed.
       Additionally, claimed direct costs are acceptable and provisionally approved pending
       final acceptance.
       According to the DCAA, the contractor claims exception from the practices required by
       the Cost Accounting Standards Board rules and regulations because the company
       considers itself a small business concern.
       The information in this report should not be used for purposes other than those intended
       without prior consultation with the Treasury Inspector General for Tax Administration
       regarding their applicability.
       If you have any questions, please contact me at (202) 622-8500 or John R. Wright,
       Director, at (202) 927-7077.


       Attachment
                                NOTICE:
The Office of Inspector General for Tax Administration has no objection to the
release of this report, at the discretion of the contracting officer, to duly
authorized representatives of the contractor.

The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to
the public.

This report may not be released without the approval of this office, except to an
agency requesting the report for use in negotiating or administering a contract
with the contractor.

                  The TIGTA seal was removed due to its size.
